Report No. D-2009-115           September 29, 2009




Summary of Information Operations Contracts in Iraq
Additional Information and Copies
10B




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
                     HTU                                  UTH




Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
1B




To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                           ODIG-AUD (ATTN: Audit Suggestions)
                           Department of Defense Inspector General
                           400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms and Abbreviations
12B




BPA                              Blanket Purchase Agreement
DFAS                             Defense Finance and Accounting Service
IDIQ                             Indefinite-Delivery, Indefinite-Quantity
IO                               Information Operations
PO                               Purchase Order
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFE NSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VJRGINIA 22202-4704




                                                                      September 29, 2009


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               COMMANDER, U.S. CENTRAL COMMAND
                COMMANDER, MUL Tl~NA TIONAL FORCE~IRAQ
                COMMANDER, MULTI~NA TlONAL CORPS~IRAQ
               DIRECTOR, JOINT STAFF
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE


SUBJECT: Summary of Information Operations Contracts in Iraq
         (Report No. 0 -2009-115)


We are providing this report for your information and use.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905). If you desire, we will provide a formal briefmg on the
results.


                                              /~~.
                                             paul-u'anetto
                                             Principal Assistant Inspector General
                                             for Auditing



Attachments:
As stated
Table of Contents

Introduction                                1

      Objectives                            1
      Background                            1


Results                                     2


Attachments

      1. Scope and Methodology              6
      2. Purchase Orders                    7
      3. Blanket Purchase Agreement Calls   9




                                        i
Introduction
Objectives
0B




Our objective was to identify the universe of all contracts, to include task orders, used to
conduct Information Operations (IO) (including psychological operations in Iraq during
FYs 2006–2008. Additionally, we attempted to determine the amount of money
obligated for each contract or task order.

Background
1B




We performed this agreed-upon procedures attestation engagement in response to a
request from the Commander, U.S. Central Command, to evaluate the IO requirements in
support of Operation Iraqi Freedom. The commander asked us to identify and evaluate
the process to establish and execute IO requirements and to identify the resources applied
to meet those requirements. The commander also asked us to evaluate the contracting
process and the use of private contractors in support of IO.

This is the second in a series of reports that will address the request from the
Commander, U.S. Central Command. Our report lists all unclassified contracts used to
conduct IO (including psychological operations) in Iraq during FYs 2006–2008. The first
report in the series, report number D-2009-091, discusses whether the indefinite-delivery,
indefinite-quantity (IDIQ) IO contracts awarded by Multi-National Forces-Iraq complied
with the Federal Acquisition Regulation.

IO
3B




Joint Publication 3-13, “Information Operations,” February 13, 2006, states that IO are
the “integrated employment of electronic warfare (EW), computer network
operations (CNO), psychological operations (PSYOP), military deception (MILDEC),
and operations security (OPSEC), in concert with specified supporting and related
capabilities, to influence, disrupt, corrupt, or usurp adversarial human and automated
decision making while protecting our own.”

Defense Finance and Accounting Service
4B




Defense Financial Accounting Service (DFAS) provides finance and accounting support
to the Services and other Defense agencies. DFAS was established in 1991 to
standardize, consolidate, and improve accounting and financial functions throughout
DOD. DFAS is headquartered in Arlington, Virginia, and has field offices in the U.S.
and overseas. The Rome, New York, field office, activated on April 3, 1995, provides
vendor pay, accounting data processing, reports production, and system support to select
Army activities. The Indianapolis, Indiana, field office, activated on January 20, 1991,
disburses more than $104 billion annually and provides services to more than 1.9 million
people. The primary mission of DFAS is to deliver responsive accounting and finance
services to the men and women in uniform, as well as to those who support the
warfighters defending our country.



                                              1
Results
As requested by the Commander, U.S. Central Command, this report identifies and
summarizes IO contracts in Iraq from FY 2006 through FY 2008. U.S. Central
Command provided us with copies of the IO contracts, which we examined to identify
award value and any contract modifications. This report provides a summary of the
contract data and does not attest to the validity or completeness of the data.

Information Operations Contracts in Iraq
2B




U.S. Central Command used 172 contract vehicles for IO in Iraq totaling $270.1 million
during FY 2006 through FY 2008. The 172 contract vehicles can be grouped into four
categories based on type of instrument:
        IDIQ;
        purchase order (PO);
        blanket purchase agreement (BPA); and
        other contracts.

The table below summarizes the quantity and value of IO contract vehicles in each
category.

                            Table 1. IO Contracts in Iraq
   Instrument          Number of Contract Vehicles                      Value (in millions)
IDIQ                                  6                                      $185.6
PO                                    58                                        34.2
BPA                                  104                                        27.5
Other                                 4                                         22.7
 Total                               172                                     $270.1
Note: Because of rounding, columns may not sum.

The figure below corresponds with Table 1 to illustrate the percentage of each contract
instruments’ dollar value, relative to the total value of all IO contracts.

                         Figure. Value of IO Contract Instruments
        IDIQ
        $185.6 million
                                                           8%
                                                     10%
        PO
        $34.2 million
                                                     13%          69%
        BPA
        $27.5 million

        Other
        $22.7 million

     Source: Generated by DOD IG from U.S. Central Command Data
                                                2
Indefinite-Delivery, Indefinite-Quantity
5B




During FY 2006 through FY 2008, four IDIQ 1 contracts were used for IO in Iraq. Those
                                                          FP   PF




contracts had six task orders awarded under them, with a total value of $185.6 million.
This total includes eight modifications that increased the value of two task orders. Of the
172 contract vehicles awarded, the six IDIQ task orders represented only 3 percent of all
contract vehicles. However, by dollar value, these six task orders accounted for
69 percent of the total value of IO contracts. The two largest task orders (by dollar value)
totaled $168.8 million. By contrast, the value of the other four task orders combined to
only $16.8 million. The table below provides additional details about the IDIQ contracts.

                              Table 2. IDIQ Contracts
  Contract Number              Award Date       Task Orders                           Value (in millions)
W91GER-06-D-0007          September 8, 2006           2                                       $5.4
W91GER-07-D-0004          May 16, 2007                3                                     173.7
W91GDW-07-D-4013          June 19, 2007               0                                        0.0
W91GDW-07-D-4018          July 30, 2007               1                                        6.4
 Total                                                6                                   $185.6
Note: Because of rounding, columns may not sum.

Examples of products and services purchased using IDIQ task orders included military
analysts, development of television commercials and documentaries, focus group and
polling services, television air time, posters, banners, and billboards.

Purchase Orders
6B




During FY 2006 through FY 2008, a total of 58 POs 2 were used for IO in Iraq with a
                                                                    FP   PF




combined value of $34.2 million. The total dollar value of POs includes 17 modifications
that increased or decreased the value of the POs. The mean PO (after modifications) was
valued at $590,517. The smallest PO by dollar value was awarded for $450, while the
largest was $5.97 million.

There were 11 POs valued at more than $1 million, with a combined value of
$26.4 million, or 77 percent of the total value of POs awarded. By contrast, the value of
the remaining 47 POs was only $7.8 million. For a complete list of POs awarded, see
Attachment 2.

POs were used for the following products or services: billboards, magazine publishing
and printing services, newspaper dissemination, video production services, television and
radio airtime, text messaging services, Internet services, and novelty items.



1
P An IDIQ contract provides for an indefinite-delivery, indefinite-quantity, within stated limits, of supplies
     P




or services during a fixed period.
2
P POs are issued on a firm-fixed-price basis, specify the quantity of supplies or scope of services ordered,
     P




and contain a determinable date by which delivery of the supplies or performance of the services required.


                                                      3
Blanket Purchase Agreement Calls
7B




During FY 2006 through FY 2008, a total of 104 BPA 3 calls were issued for IO in Iraq,
                                                                      FP   PF




with a combined value of $27.5 million. The total dollar value includes four
modifications that increased or decreased the value of specific BPA calls. The mean
BPA call (after modifications) was valued at $264,709. The smallest call by dollar value
was $500, while the largest was $4,999,950. There were three BPA calls valued at more
than $1 million each, with a combined value of $8.1 million. The three largest BPA calls
represented 29 percent of the total value of all calls awarded. For a complete list of BPA
calls awarded, see Attachment 3.

Products or services purchased using BPA calls included television and radio production,
television placement, radio dissemination, billboards, novelty items, and leaflets.

Other Contracts
8B




During FY 2006 through FY 2008, four contracts were awarded using instruments other
than IDIQ, PO, or BPA. These contracts were valued at $22.7 million, which includes
one modification that increased the value of one contract. The table below lists the four
contracts in this category.

                                          Table 3. Other Contracts
     Contract Number                                 Award Date                                Value
W91GEU-08-F-0163                             May 27, 2008                                       $48,300
W91GXE-08-C-0055                             June 18, 2008                                      300,000
W91GDW-08-C-0001                             June 28, 2008                                   21,996,900
W91GEU-08-F-5236                             September 22, 2008                                 354,270
 Total                                                                                      $22,699,470

Products or services purchased using other contracts included television product
dissemination, a military operations deception planner, and billboard construction
services.

Funds Obligated
9B




The secondary objective of our summary was to identify the amount of money obligated
for the contracts used for IO in Iraq from FY 2006 through FY 2008. U.S. Central
Command provided a listing of IO contracts in Iraq from FY 2006 through FY 2008. The
data we received from U.S. Central Command did not contain the amounts obligated
against each contract, so we coordinated with DFAS to obtain this information. DFAS
personnel used the Operational Data Storage database to retrieve obligation data for some
contracts. However, the Operational Data Storage database did not provide obligation
amounts for all contracts. DFAS personnel stated that there is a contract value threshold


3
P    PA BPA is a simplified method of filling anticipated repetitive needs for supplies or services by
     establishing “charge accounts” with qualified sources of supply.


                                                          4
and if a contract is awarded for an amount above the threshold, payments to the vendor
must be made by DFAS via electronic funds transfer. For example, on April 1, 2008, a
memorandum of agreement between DFAS–Rome and the Joint Contracting Command–
Iraq/Afghanistan lowered the threshold to $250,000. Some IO contracts were awarded
for amounts below $250,000. In these cases, payments to the vender can be made by a
finance battalion in theater, and the Operational Data Storage database would have no
record of the payment or obligation data. We did not conduct the additional audit field
work that would have been necessary to obtain the amounts obligated for each of the 172
contract vehicles because it would have expanded the scope of the project beyond what
we had agreed upon with U.S. Central Command. Therefore, because DFAS could not
provide us with the amount of money obligated for each contract, we used the value of
contracts at the time of award to provide context for the total value of contracts used for
IO in Iraq from FY 2006 through FY 2008.




                                             5
Attachment 1. Scope and Methodology
We conducted this agreed-upon procedures attestation engagement from February 2009
through September 2009 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the attestation engagement
to obtain sufficient, appropriate evidence to provide a reasonable basis for our results
based on our attestation objectives. We believe that the evidence obtained provides a
reasonable basis for our results based on our attestation objectives.

As requested by the U.S. Central Command, this report lists and describes contracts used
for IO in Iraq from FY 2006 through FY 2008. Specifically, the Commander, U.S.
Central Command, requested a list of IO contracts, not an audit of the validity or
completeness of the data.

We contacted U.S. Central Command personnel to obtain a list of IO contracts in Iraq for
FY 2006 through FY 2008. In February 2009, U.S. Central Command provided us with
copies of the contracts used for IO in Iraq from FY 2006 through FY 2008. We reviewed
and analyzed the data and organized the information into a comprehensive spreadsheet.

We contacted DFAS–Rome and DFAS–Indianapolis officials to obtain the amount of
money obligated for the list of contracts used for IO in Iraq from FY 2006 through
FY 2008. DFAS was able to provide only a limited amount of data pertaining to the
amount obligated for each contract. A significant amount of audit work would be
necessary to obtain the amount obligated for each contract, which would have been
outside the scope of this project that we agreed upon with U.S. Central Command.
Therefore, we used the value of contracts at the time of award to provide context for the
total value of contracts used for IO in Iraq from FY 2006 through FY 2008.




                                            6
Attachment 2. Purchase Orders
A total of 58 POs were used for IO in Iraq from FY 2006 through FY 2008, with a
combined value of $34.2 million. The table below provides additional details about these
POs.

   Contract Number                    Award Date                       Value
W91GEU-07-P-1186              April 20, 2007                        $945,000.00
W91GEU-08-P-0290              November 16, 2007                       $8,330.00
W91GEU-08-P-0302              November 19, 2007                      $47,400.00
W91GDW-08-M-0015              December 12, 2007                     $209,952.00
W91GEU-08-P-5051              December 14, 2007                         $450.00
W91GXE-08-M-0155              December 18, 2007                      $78,000.00
W91GEU-08-P-5071              December 28, 2007                      $75,339.73
W91GFC-08-M-0376              January 12, 2008                       $11,850.00
W91GDW-08-M-0050              January 22, 2008                     $872,499.00
W91GDW-08-M-0052              January 24, 2008                         $700.00
W91GDW-08-M-0053              January 28, 2008                    $1,056,000.00
W91GDW-08-M-0054              January 28, 2008                    $1,173,750.00
W91GDW-08-M-0057              January 30, 2008                    $1,106,300.00
W91GDW-08-M-0058              January 31, 2008                    $1,280,252.00
W91GFC-08-M-0444              January 31, 2008                       $30,000.00
W91GFC-08-M-0483              February 16, 2008                       $4,200.00
W91GEU-08-P-5155              March 1, 2008                         $288,000.00
W91GEU-08-P-0884              March 12, 2008                          $1,120.00
W91GFC-08-M-0682              March 31, 2008                         $23,000.00
W91GEU-08-P-1104              April 19, 2008                        $307,705.16
W91GF9-08-M-0333              May 1, 2008                           $107,800.00
W91GET-08-M-0768              May 5, 2008                            $22,200.00
W91GET-08-M-0875              May 5, 2008                            $42,000.00
W91GDW-08-M-0091              May 8, 2008                           $240,000.00
W91GEY-08-M-0555              May 18, 2008                          $114,000.00
W91GEU-08-P-5277              May 22, 2008                           $10,985.00
W91GXE-08-M-0462              May 24, 2008                           $62,140.00
W91GFL-08-M-0684              May 25, 2008                           $60,000.00
W91GEU-08-P-5250              May 31, 2008                           $25,992.00
W91GEU-08-P-1413              June 7, 2008                           $84,000.00
W91GEU-08-P-1460              June 18, 2008                         $245,000.00



                                           7
   Contract Number           Award Date        Value
W91GEU-08-P-5339     June 23, 2008           $89,000.00
W91GEU-08-P-1364     July 1, 2008             $9,800.00
W91GEU-08-P-1530     July 1, 2008           $141,840.00
W91GFL-08-M-0769     July 1, 2008         $1,140,000.00
W91GF9-08-M-0438     July 15, 2008           $78,000.00
W91GDW-08-M-0100     July 22, 2008        $2,479,750.00
W91GF9-08-M-0450     August 6, 2008         $462,733.74
W91GDW-08-M-0117     August 20, 2008      $2,311,400.00
W91GF9-08-M-0471     August 26, 2008        $224,450.00
W91GEU-08-P-5405     August 28, 2008         $31,099.04
W91GF5-08-M-7110     August 28, 2008        $432,000.00
W91GFL-08-M-0946     September 12, 2008     $267,000.00
W91GDW-08-M-0128     September 15, 2008   $1,483,000.00
W91GDW-08-P-0016     September 15, 2008     $118,800.00
W91GF5-08-M-7117     September 16, 2008     $106,200.00
W91GDW-08-P-0017     September 18, 2008     $181,340.00
W91GEU-08-P-1910     September 19, 2008      $16,800.00
W91GDW-08-M-0126     September 20, 2008   $5,969,950.00
W91GDW-08-M-0129     September 21, 2008     $681,400.00
W91GDW-08-M-0135     September 24, 2008     $118,944.00
W91GDW-08-M-0136     September 24, 2008      $12,505.00
W91GDW-08-M-0125     September 26, 2008   $4,666,000.00
W91GDW-08-M-0127     September 26, 2008   $3,776,320.00
W91GDW-08-M-0134     September 26, 2008     $608,400.00
W91GDW-08-M-0139     September 26, 2008     $238,000.00
W91GDW-08-M-0140     September 26, 2008      $67,500.00
W91GDW-08-M-0142     September 29, 2008       $3,795.00




                                8
Attachment 3. Blanket Purchase Agreement
Calls
A total of 104 BPA calls were used for IO in Iraq from FY 2006 to FY 2008, with a
combined value of $27.5 million. The table below provides additional details on the BPA
calls.

   Contract Number                    Award Date                        Value
W91GET-06-A-5002-2001           January 27, 2007                     $403,100.00
W91GER-06-A-0043-3001           May 14, 2007                       $1,999,900.00
W91GER-07-A-0011-2001           May 17, 2007                         $127,150.00
W91GDW-07-A-0003-4001           May 29, 2007                        $219,160.00
W91GER-06-A-0043-3002           May 29, 2007                       $4,999,950.00
W91GER-07-A-0011-2002           June 27, 2007                        $356,050.00
W91GET-07-A-0002-0001           August 7, 2007                        $80,200.00
W91GDW-07-A-0003-1001           August 9, 2007                       $252,720.00
W91GET-07-A-0002-0002           August 16, 2007                       $17,575.00
W91GDW-07-A-0020-1002           August 17, 2007                      $112,250.00
W91GDW-07-A-0002-3002           August 18, 2007                      $663,973.00
W91GDW-07-A-0002-3001           August 18, 2007                      $193,694.00
W91GET-07-A-0002-0003           August 21, 2007                        $2,310.00
W91GDW-07-A-0022-1001           August 22, 2007                       $70,550.00
W91GET-07-A-0002-0004           August 29, 2007                       $35,055.00
W91GDW-07-A-0022-1002           September 3, 2007                    $170,219.90
W91GET-07-A-0002-0006           September 3, 2007                     $28,670.00
W91GET-07-A-0002-0005           September 5, 2007                     $65,460.00
W91GET-07-A-0002-0007           September 15, 2007                    $77,630.00
W91GET-07-A-0002-0008           September 17, 2007                    $42,640.00
W91GDW-07-A-0020-1003           September 27, 2007                   $129,440.00
W91GDW-07-A-0022-1003           September 27, 2007                     $3,000.00
W91GDW-07-A-0003-3001           October 10, 2007                     $100,450.00
W91GDW-07-A-0003-3002           November 13, 2007                     $67,900.00
W91GER-06-A-0046-2008           November 26, 2007                    $275,800.00
W91GDW-07-A-0003-4002           December 2, 2007                      $43,780.00
W91GER-07-A-0011-2003           December 10, 2007                   $149,999.96
W91GDW-07-A-0003-3003           December 22, 2007                   $614,800.00
W91GER-07-A-0011-2004           January 7, 2008                        $3,600.00
W91GDW-07-A-0023-2003           January 30, 2008                     $746,790.00


                                          9
  Contract Call Number         Award Date         Value
W91GEU-07-A-0002-0011    February 11, 2008    $157,588.00
W91GDW-07-A-0003-4003    February 18, 2008     $162,480.00
W91GER-06-A-0012-0005    March 17, 2008         $36,890.00
W91GER-07-A-0011-2005    March 25, 2008          $2,000.00
W91GFC-08-A-0001-0001    March 27, 2008          $5,000.00
W91GFC-08-A-0001-0002    March 29, 2008          $1,000.00
W91GFC-08-A-0001-0003    April 3, 2008           $1,150.00
W91GFC-08-A-0001-0004    April 7, 2008           $1,500.00
W91GEU-07-A-0002-0012    April 8, 2008         $199,975.00
W91GEU-07-A-0001-0034    April 9, 2008           $5,000.00
W91GFC-08-A-0001-0005    April 10, 2008          $5,500.00
W91GFC-08-A-0001-0006    April 15, 2008          $2,500.00
W91GFC-08-A-0001-0007    April 27, 2008          $4,750.00
W91GEU-07-A-0002-0014    May 1, 2008           $191,213.00
W91GFC-08-A-0001-0008    May 5, 2008               $500.00
W91GFC-08-A-0001-0009    May 10, 2008            $2,100.00
W91GDW-07-A-0002-3003    May 15, 2008         $663,973.00
W91GFC-08-A-0001-0010    May 15, 2008            $6,000.00
W91GFC-08-A-0001-0011    May 17, 2008           $16,500.00
W91GFC-08-A-0001-0012    May 20, 2008            $1,250.00
W91GER-07-A-0011-2006    May 22, 2008            $9,000.00
W91GFC-08-A-0001-0013    May 28, 2008            $8,375.00
W91GER-06-A-0043-2004    June 3, 2008        $1,121,400.00
W91GFC-08-A-0001-0014    June 3, 2008           $11,250.00
W91GDW-07-A-0003-4004    June 4, 2008         $307,860.00
W91GFC-08-A-0001-0015    June 10, 2008           $2,125.00
W91GFC-08-A-0001-0016    June 14, 2008           $8,625.00
W91GER-07-A-0011-2007    June 21, 2008         $151,250.00
W91GFC-08-A-0001-0017    June 29, 2008           $3,625.00
W91GFC-08-A-0001-0018    July 3, 2008            $3,750.00
W91GFC-08-A-0001-0019    July 11, 2008          $11,000.00
W91GFC-08-A-0001-0020    July 25, 2008           $4,000.00
W91GET-07-A-0002-0009    August 1, 2008         $16,632.00
W91GER-07-A-0011-3003    August 15, 2008       $267,819.05
W91GET-06-A-5002-2006    August 15, 2008       $501,111.08
W91GET-06-A-5002-1002    August 23, 2008       $109,027.85


                                  10
  Contract Call Number        Award Date         Value
W91GET-06-A-5002-2008    August 24, 2008       $27,500.00
W91GET-07-A-0002-0010    August 31, 2008       $22,139.25
W91GFC-08-A-0001-0021    September 1, 2008     $26,625.00
W91GET-06-A-5002-2010    September 7, 2008     $24,000.00
W91GFC-08-A-0001-0022    September 8, 2008     $17,250.00
W91GFC-08-A-0001-0023    September 12, 2008    $35,250.00
W91GDW-07-A-0020-1004    September 15, 2008   $565,600.00
W91GDW-07-A-0020-1005    September 15, 2008   $124,800.00
W91GER-07-A-0011-2008    September 15, 2008    $55,550.35
W91GET-07-A-0002-0011    September 18, 2008   $140,945.60
W91GER-06-A-0012-0006    September 19, 2008    $76,356.00
W91GFC-08-A-0001-0024    September 20, 2008    $12,500.00
W91GDW-07-A-0003-3005    September 21, 2008   $219,900.00
W91GET-07-A-0002-0012    September 22, 2008    $10,137.16
W91GER-06-A-0012-0007    September 24, 2008   $370,300.00
W91GER-06-A-0012-0008    September 24, 2008    $39,768.00
W91GER-06-A-0012-4006    September 24, 2008   $453,440.00
W91GDW-07-A-0002-3005    September 26, 2008   $402,464.00
W91GDW-07-A-0002-3004    September 26, 2008   $680,120.00
W91GDW-07-A-0002-0001    September 26, 2008   $392,040.00
W91GDW-07-A-0003-3004    September 26, 2008   $742,140.00
W91GDW-07-A-0003-4005    September 26, 2008   $661,680.00
W91GDW-07-A-0020-2001    September 26, 2008   $402,463.00
W91GDW-07-A-0023-2004    September 26, 2008   $151,200.00
W91GER-07-A-0023-3001    September 26, 2008   $402,463.00
W91GER-06-A-0011-0006    September 26, 2008   $521,875.00
W91GER-06-A-0011-4003    September 26, 2008   $613,740.00
W91GER-06-A-0012-1001    September 26, 2008   $130,560.00
W91GER-06-A-0043-3004    September 26, 2008   $481,592.00
W91GER-06-A-0044-2029    September 26, 2008   $481,592.00
W91GER-06-A-0045-1004    September 26, 2008   $748,800.00
W91GER-06-A-0045-3005    September 26, 2008   $481,592.00
W91GER-06-A-0046-2010    September 26, 2008   $481,592.00
W91GER-06-A-0046-2011    September 26, 2008   $250,000.00
W91GER-07-A-0011-3004    September 26, 2008   $120,000.00
W91GER-06-A-0011-0007    September 27, 2008   $218,540.00


                                  11
  Contract Call Number        Award Date         Value
W91GER-06-A-0012-0009    September 27, 2008   $189,540.00
W91GER-06-A-0047-2017    September 27, 2008   $696,167.00




                                  12
